                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS



                                   Final Audit Report

  Subject:




        AUDIT OF INFORMATION SYSTEMS
   GENERAL AND APPLICATION CONTROLS AT THE
   NATIONAL ASSOCIATION OF LETTER CARRIERS
             HEALTH BENEFIT PLAN


                                            Report No. 1B-32-00-13-037
                                                                    May 6, 2014
                                            Date:




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report



              FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                            CONTRACT 1067
                   NATIONAL ASSOCIATION OF LETTER CARRIERS
                                            HEALTH BENEFIT PLAN
                                                      PLAN CODE 32
                                                ASHBURN, VIRGINIA



                                            Report No. 1B-32-00-13-037

                                            Date:                   May 6, 2014




                                                                                             ________________________
                                                                                             Michael R. Esser
                                                                                             Assistant Inspector General
                                                                                               for Audits




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary



          FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                        CONTRACT 1067
             NATIONAL ASSOCIATION OF LETTER CARRIERS
                                HEALTH BENEFIT PLAN
                                       PLAN CODE 32
                                  ASHBURN, VIRGINIA



                              Report No. 1B-32-00-13-037
                                                May 6, 2014
                              Date:


This final report discusses the results of our audit of general and application controls over the
information systems at the National Association of Letter Carriers Health Benefit Plan (NALC
HBP or Plan).

Our audit focused on the claims processing applications used to adjudicate Federal Employees
Health Benefits Program (FEHBP) claims for NALC HBP, as well as the various processes and
information technology (IT) systems used to support these applications. We documented
controls in place and opportunities for improvement in each of the areas below.

Security Management
NALC HBP has not developed an adequate security management program. NALC HBP has not
developed IT security policies and procedures, implemented a formal security awareness training
program or a specialized training program, and has not established a formal risk management
program.

Access Controls
NALC HBP has not implemented adequate physical access controls surrounding its facilities and
data center. Additionally, we documented several opportunities for improvement related to

                                                 i
NALC HBP’s logical access controls related to password policy, segregation of duties, and
monitoring user accounts.

Network Security
Our review of the network security controls indicated that the NALC HBP has implemented and
utilizes a firewall to protect its network environment. However, we noted several areas of
concern:
•   Formal policies and procedures have not been implemented for:
    o Security Incident Response,
    o Vulnerability Management and Remediation,
    o Patch Management, and
    o Firewall Configuration Management;
•   Vulnerability scan results indicate that critical patches, service packs, and hot fixes are not
    implemented in a timely manner; and
•   The Plan does not have controls to detect and prevent unauthorized devices from connecting
    to the internal network.

Configuration Management
NALC HBP has not developed formal policies and procedures that provide guidance to ensure
that system software is appropriately configured and updated. NALC HBP has not documented
formal baseline configurations for all of the utilized operating platforms and, as a result, is
unable to routinely audit its network servers’ configuration to any approved configuration
settings. NALC HBP has also not established a formal systems development lifecycle
methodology. NALC HBP has documented corporate password standards, but we discovered
many instances where information systems did not follow the established guidelines.

Contingency Planning
NALC HBP has not conducted an adequate business impact analysis. Currently, NALC HBP
does not have an alternate location to recover its computing environment in the event of a
disaster at its primary data center. NALC HBP has also not established an alternate work site for
its employees to allow for critical business operations to continue if the main facility is not
accessible. The backup power generator at the NALC HBP facility does not have the capacity to
sustain the data center in the event of a prolonged power outage. NALC HBP’s contingency
plan does not address many of the suggested elements of relevant guidance, and the plan is not
tested routinely. NALC HBP also does not routinely perform emergency response training
related to business continuity and disaster recovery for its employees with responsibilities in
these areas.

Claims Adjudication
NALC HBP has implemented many controls in its claims process to ensure that FEHBP claims
are processed accurately with regard to enrollment and debarment. However, we noted
significant weaknesses
         NALC HBP informed the OIG that Cigna, its pricing vendor, may have edits in place to
prevent or identify these issues, but to date has not provided sufficient evidence to support this

                                                 ii
claim. As a result, we are issuing this report with the assumption that no additional controls
exist.

Health Insurance Portability and Accountability Act (HIPAA)
The Plan developed a series of privacy policies and procedures that address requirements of the
HIPAA privacy rule. However, not all of the elements of the HIPAA security rule have been
implemented.




                                                iii
                                                                Contents
                                                                                                                                             Page
Executive Summary ......................................................................................................................... i
I. Introduction ................................................................................................................................ 1
   Background ................................................................................................................................. 1
   Objectives ................................................................................................................................... 1
   Scope ........................................................................................................................................... 2
   Methodology ............................................................................................................................... 2
   Compliance with Laws and Regulations..................................................................................... 3
II. Audit Findings and Recommendations ...................................................................................... 4
   A. Security Management ............................................................................................................ 4
   B. Access Controls ..................................................................................................................... 8
   C. Network Security ................................................................................................................. 16
   D. Configuration Management ................................................................................................. 22
   E. Contingency Planning .......................................................................................................... 25
   F. Claims Adjudication ............................................................................................................ 31
   G. Health Insurance Portability and Accountability Act .......................................................... 35
III. Major Contributors to This Report ......................................................................................... 36
     Appendix I:  Flash Audit Alert – Information Security at the National Association of Letter
                  Carriers Health Benefit Plan, issued July 29, 2013.
     Appendix II: National Association of Letter Carriers Health Benefit Plan’s January 31, 2014
                  response to the draft audit report issued December 2, 2013.
                                      I. Introduction

This final report details the findings, conclusions, and recommendations resulting from our audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by the National Association of
Letter Carriers Health Benefit Plan (NALC HBP or Plan).

The audit was conducted pursuant to FEHBP contract CS 1067; 5 U.S.C. Chapter 89; and 5 Code
of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S. Office
of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our second audit of NALC HBP’s general and application controls. The first audit was
conducted in 2004 and all recommendations from that audit were closed prior to the start of the
current audit. We also reviewed NALC HBP’s compliance with the Health Insurance Portability
and Accountability Act (HIPAA).

During the field work phase of this audit, we issued a flash audit alert to bring immediate
attention to serious concerns we had regarding NALC HBP’s ability to adequately secure
sensitive Federal data. The alert included two recommendations that we believed were urgent in
nature, and advised NALC HBP to begin immediately taking steps to address the weaknesses.

All NALC HBP personnel that worked with the auditors were helpful and open to ideas and
suggestions. They viewed the audit as an opportunity to examine practices and to make changes
or improvements as necessary. Their positive attitude and helpfulness throughout the audit was
greatly appreciated. We would also like to commend the Plan for taking prompt corrective
actions on many of the recommendations within this report.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in NALC HBP’s IT environment. We
accomplished these objectives by reviewing the following areas:
•   Security management;
•   Access controls;
•   Configuration management;
•   Segregation of duties;

                                                 1
•   Contingency planning;
•   Application controls specific to NALC HBP’s claims processing system; and
•   HIPAA compliance.

Scope
This performance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obtained an understanding of NALC HBP’s internal controls through interviews and
observations, as well as inspection of various documents, including information technology and
other related organizational policies and procedures. This understanding of NALC HBP’s
internal controls was used in planning the audit by determining the extent of compliance testing
and other auditing procedures necessary to verify that the internal controls were properly
designed, placed in operation, and effective.

The scope of this audit centered on the information systems used by NALC HBP to process
medical insurance claims for FEHBP members, with a primary focus on the claims adjudication
applications. NALC HBP claims are priced through a third party, Cigna, before they are
processed by             the Plan’s claims adjudication system. The business processes reviewed
are primarily located in NALC HBP’s Ashburn, Virginia facility.

The on-site portion of this audit was performed from June through July of 2013. We completed
additional audit work before and after the on-site visit at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this report are based on the status of
information system general and application controls in place at NALC HBP as of August 2013.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
NALC HBP. Due to time constraints, we did not verify the reliability of the data used to
complete some of our audit steps, but we determined that it was adequate to achieve our audit
objectives. However, when our objective was to assess computer-generated data, we completed
audit steps necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this review we:
•   Gathered documentation and conducted interviews;
•   Reviewed NALC HBP’s business structure and environment;
•   Performed a risk assessment of NALC HBP’s information systems environment and
    applications, and prepared an audit program based on the assessment and the Government
    Accountability Office’s (GAO) Federal Information System Controls Audit Manual
    (FISCAM); and
•   Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, we used judgmental sampling in
    completing our compliance testing.




                                                2
Various laws, regulations, and industry standards were used as a guide to evaluating NALC
HBP’s control structure. These criteria include, but are not limited to, the following
publications:
•   Title 48 of the Code of Federal Regulations;
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30 Revision 1, Guide for Conducting Risk Assessments;
•   NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems;
•   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-50, Building an Information Technology Security Awareness and Training
    Program;
•   NIST SP 800-53 Revision 4, Security and Privacy Controls for Federal Information Systems
    and Organizations;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether NALC HBP’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
NALC HBP was not in complete compliance with all standards as described in the “Audit
Findings and Recommendations” section of this report.




                                                3
                     II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of NALC HBP’s overall IT security controls. We evaluated
  NALC HBP’s ability to develop security policies, manage risk, assign security-related
  responsibility, and monitor the effectiveness of various system-related controls. We also
  reviewed NALC HBP’s human resources policies and procedures related to hiring, training,
  transferring, and terminating employees.

  The sections below outline our concerns with NALC HBP’s security management program.

  1. Entity-Wide IT Policies and Procedures
    NALC HBP has not developed comprehensive IT security policies and procedures. IT
    policies and procedures are the critical foundation of a strong information security program,
    as these documents provide guidance on how IT security should be managed at a specific
    organization.

    FISCAM states that “Entities should have a written plan that clearly describes the entity’s
    security program, and policies and procedures that support it. The plan and related policies
    should cover all major systems and facilities and outline the duties of those who are
    responsible for overseeing security (the security management function) as well as those who
    own, use, or rely on the entity's computer resources. . . . To be effective, the policies and plan
    should be maintained to reflect current conditions. They should be periodically reviewed and,
    if appropriate, updated and reissued to reflect changes in risk due to factors such as changes in
    agency mission or the types and configuration of computer resources in use.”

    Without well-defined IT security policies, security controls may be inadequate;
    responsibilities may be unclear, misunderstood, and improperly implemented; and controls
    may be inconsistently applied.

    Recommendation 1 (from Flash Audit Alert issued July 29, 2013)
    We recommend that NALC HBP develop comprehensive IT security policies and procedures.
    At a minimum, NALC HBP should implement policies and procedures related to the
    following topics:

    •   Risk Assessments                               •   Password Requirements
    •   Contingency Planning and Testing               •   Vulnerability Scanning
    •   Security Awareness Training                    •   Server Configuration Management,
    •   Employee Termination                               Baseline Configurations, and Auditing
    •   Physical Access Controls                           Server Configuration
    •   Auditing/Monitoring User and                   •   System Development Lifecycle
        Administrator Activity                         •   Firewall Management
    •   Appropriate Use of Software                    •   Web and E-mail Filtering

                                                   4
  •   Segregation of Duties                        •   Wireless Network Access
  •   Security Incident Response                   •   Control of Removable Media

  NALC HBP Response:
  “The NALC HBP has developed and adopted the attached Information Security Policies
  and Procedures”

  OIG Reply:
  The evidence provided by NALC HBP in response to the draft audit report indicates that the
  Plan has developed detailed policies and procedures for its IT security program; no further
  action is required.

  Recommendation 2
  We recommend that NALC HBP implement a process to routinely review and update its IT
  security policies.

  NALC HBP Response:
  “The NALC HBP has established an Information Security Management Committee.

  The committee members are: NALC HBP Director, the NALC HBP Administrator, the
  Human Resources Manager, the Facilities Manager, the Information Systems Manager,
  the Claims Superintendent, the HIPAA Security Officer and the HIPAA Privacy Official.

  The committee, in conjunction with members of the Information Systems Department staff
  and representatives from the Administrative and Claims departments, have been integral in
  formulating the newly established policies. The committee will meet annually prior to the
  scheduled risk assessment to review and update IT security policies.

  Policies will be addressed accordingly if circumstances dictate a review and update prior to
  the scheduled event.

  The NALC HBP policy is now formally documented in IS-01 Information Security
  Program Policy on Policies and will be effective on February 1, 2014.”

  OIG Reply:
  The evidence provided by NALC HBP in response to the draft audit report indicates that the
  Plan has implemented a process to routinely review and update its IT security policies; no
  further action is required.

2. Security Awareness Training
  NALC HBP has not implemented a formal security awareness training program for its full-
  time, part-time, temporary, or contractor employees.


                                              5
  Section 164.308(5)(i) of HIPAA states that the organization must, “Implement a security
  awareness and training program for all members of its workforce (including management).”

  Without a formal security awareness training program, employees cannot be held accountable
  for security breaches, as they have not been properly trained. Without regular awareness
  training, employees may not be aware of their responsibilities for protecting the organization’s
  resources. This lack of employee knowledge and understanding could expose NALC HBP’s
  confidential information to unauthorized personnel.

  Recommendation 3
  We recommend that as part of its efforts to obtain compliance with the HIPAA security rule,
  NALC HBP implement a security awareness training program for its employees. For
  guidance in creating a security awareness program see NIST SP 800-50, Building an
  Information Technology Security Awareness and Training Program.

  NALC HBP Response:
  “The NALC HBP is in the process of creating a security awareness program based upon
  our own policies in conjunction with outside resources. Specifically we have contacted
                                          regarding their –
  educational suite and          regarding their                         product. Upon
  selection of the appropriate product, we will incorporate pertinent materials into our
  security program.

  We are anticipating an April 2014 launch for our security awareness training program for
  all employees and will update our new employee educational material to address the
  security requirements.”

  OIG Reply:
  As part of the audit resolution process, we recommend that NALC HBP provide OPM’s
  Healthcare and Insurance Office (HIO) with supporting evidence when a security awareness
  training program has been developed and implemented.

3. Specialized Training
  Personnel responsible for the administrative, technical, and operational security of NALC
  HBP’s technical operating environment do not receive the routine training necessary to
  adequately monitor and maintain the Plan’s network infrastructure and external access points
  to its information system resources.

  According to NIST SP 800-12 Chapter 13, “Many groups need more advanced or more
  specialized training than just basic security practices. For example, managers may need to
  understand security consequences and costs so they can factor security into their decisions, or
  system administrators may need to know how to implement and use specific access control
  products. . . . A security training program normally includes training classes, either strictly
  devoted to security or as added special section or modules within existing training classes.

                                               6
   Training may be computer- or lecture-based (or both), and may include hands-on practice and
   case studies.”

   Without a specialized training program, the personnel responsible for IT security at NALC
   HBP are not equipped with the necessary knowledge to identify and address security
   weaknesses, implement and use access control and system monitoring tools, or understand the
   security consequences and costs that should be factored into their decisions.

   Recommendation 4
   We recommend that NALC HBP develop and implement a training program for employees
   with IT security responsibilities. The program should include:
   •   A process to identify and categorize positions with security responsibilities;
   •   Inclusion of specialized security training requirements within job descriptions;
   •   Opportunities to seek and maintain technical certifications;
   •   Documentation of training completed by each employee; and
   •   A periodic review of employee records to ensure that specialized security training is
       completed in accordance with standards.

   NALC HBP Response:
   “The NALC HBP is reviewing outside sources for purposes of establishing specialized
   training for employees with IT security responsibilities, which will include the bulleted
   items above. The sources contacted to date are
                        .

   The NALC HBP has always encouraged and has a documented history of allowing our
   employees opportunities to seek and maintain technical certifications.”

   OIG Reply:
   As part of the audit resolution process, we recommend that NALC HBP provide OPM’s HIO
   with evidence when a training program for employees with elevated IT security
   responsibilities has been developed and implemented.

4. Risk Assessment
   NALC HBP has not established a risk management program that identifies, classifies, and
   mitigates human or environmental threats to its computer-based operating environment.

   According to FISCAM, “Risk assessments should consider data sensitivity and integrity and
   the range of risks that an entity's systems and data may be subject to, including those posed by
   authorized internal and external users, as well as unauthorized outsiders who may try to 'break
   into' the systems.”

   HIPAA Security and Privacy Standard 164.308(a)(l)(ii), requires organizations to:
   “(A). . . Conduct accurate and thorough assessment of the potential risks and vulnerabilities
   to the confidentiality, integrity, and availability of electronic protected health information. . . .
                                                   7
      (B). . . Implement security measures sufficient to reduce risks and vulnerabilities to a
      reasonable and appropriate level.”

      Recommendation 5
      We recommend that NALC HBP develop and implement a risk management policy and a risk
      assessment methodology. NIST SP 800-30 Revision 1 serves as an excellent reference to
      assist NALC HBP with the development of its risk management program. Implementation of
      the suggested framework would also help NALC HBP obtain compliance with the HIPAA
      Security Rule.

      NALC HBP Response:
      “The NALC HBP policy is now formally documented in IS-19 IT Risk Management Policy
      and will be effective on February 1, 2014.”

      OIG Reply:
      The evidence provided by NALC HBP in response to the draft audit report indicates that the
      Plan has developed and implemented a risk management policy and a risk assessment
      methodology; no further action is required.

B. Access Controls
  Access controls are the policies, procedures, and techniques used to prevent or detect
  unauthorized physical or logical access to sensitive resources.

  We examined the physical access controls of NALC HBP’s facility and data center. We also
  examined the logical controls protecting sensitive data in NALC HBP’s network environment
  and claims processing related applications.

  The access controls observed during this audit include, but are not limited to:
  •   Procedures for appropriately authorizing physical access to the facility and data center; and
  •   Procedures for revoking access to the facility and data center for terminated employees.

  The following sections document several opportunities for improvement related to NALC HBP’s
  physical and logical access controls.

  1. Password policy
      NALC HBP does not have policies or procedures for creating, changing, and safeguarding
      passwords. In addition, the current configuration of password-related values for
                                 do not provide adequate protection against unauthorized system
      access.

      Section 164.308(5)(ii)(D) of the HIPAA security rule requires an organization to document
      procedures for creating, changing, and safeguarding passwords; FISCAM provides password
      guidelines; and NIST SP 800-14 outlines requirements for the creation and maintenance of
      IDs and passwords.
                                                    8
   Failure to implement a strong password policy puts sensitive data at risk to malicious attacks.

   Recommendation 6
   We recommend that NALC HBP implement a password policy that closely reflects industry
   standards.

   NALC HBP Response:
   "The NALC HBP policy is now formally documented in IS-05 Account Management
   Policy and will be effective on February 1, 2014. We believe the policy provides
   appropriate safeguards in light ofNALC HBP's business needs."

   OIGReply: 

   The evidence provided by NALC HBP in response to the dr aft audit rep01t indicates that the 

   Plan has implemented a password policy that utilizes industry best practices; no ftnth er 

   action is required. 


   Recommendation 7
                                                                                        password
   setting weaknesses once a standard p """""··rl
   organization.

   NALC HBP Response:
   "The NALC HBP policy is now formally documented in IS-05 Account Management
   Policy and will be effective on February 1, 2014."

   OIGReply:
   The evidence provided by NALC HBP in response to the dr aft audit rep01t indicates that the
   Plan has implemented a password policy that utilizes industry best practices. However, as
   prut of the audit resolution     we recommend that NALC HBP provide OPM's HIO
   with evidence that                                            password settings comply with
   th e Plan's new

2. Segregation of duties
   NALC HBP has three domain administr·ators that shru·e a single user account f o ­
   This user accmmt is not monitored and audit logs of the accmmt's activity ru·e not reviewed.

   FISCAM states that "Work responsibilities should be segregated so that one individual does
   not contr·ol all critical stages of a process."

   NIST SP 800-53, Revision 4, states that the organization must sepru·ate "duties of individuals
   as necessary, to prevent malevolent activity without collusion; documents sepru·ation of
   duties; and implements separation of duties through assigned infonnation system access
   authorizations."

                                                9

Failure to implement adequate segregation of duties increases the risk that enoneous or
fraudulent u·ansactions could be processed, that improper changes could be implemented, or
that computer resources could be dam aged or desu·oyed. With no routine review of
privileged user activity, NALC HBP is not able to link users to specific tasks perf01med.
This increases the risk that malicious activity could go lmdetected and sensitive inf01mation
could be compromised.

Recommendation 8
We recommend that NALC HBP establish lmique user accounts for each privileged user.

NALC HBP Response:
"The NALC HBP has created unique user accounts for privileged users. Atpresent, three
Information Syste1~enior managers have unique privileged accounts on the
network and on th~ The Network Administrator has a unique privileged account
on the network but not on th~ The Programming Staffmembers have a lesser set
ofprivileges on th~ than the senior managers but ~ial network privileges.
The Operations staffhas a unique set ofprivileges on t h e - that are different than
the programming staffand lesser than the senior managers and have a unique set of
privileges on the network that are lesser than the senior managers.

The NALC HBP policy is now formally documented in IS-04 Access Control Policy and
will be effective on February 1, 2014."

OIGReply:
The evidence provided by NALC HBP in response to the draft audit rep01t indicates that the
Plan has established lmique user accmmts for privileged users; no fiuther action is required.

Recommendation 9
We recommend that NALC HBP implement a process to routinely review privileged user
activities.

NALC HBP Response:
"We have contracted with a third-party to provide an appliance and application that will
allow them to monitor account activity on our behalf. This will provide real-time alerts
based upon the sensitivity settings and will allow immediate review as required. A full
review will be conducted weekly by internal and/or the third party sources.

The NALC HBP policy is now formally documented in IS-18 Monitoring and Log
Management Policy."




                                            10 

   OIG Reply:
   The evidence provided by NALC HBP in response to the draft audit report indicates that the
   Plan has implemented a process to routinely review privileged user activities; no further
   action is required.

3. Monitoring of Active Accounts
   NALC HBP does not audit or review                                  user accounts. For
   accounts, the database administrator selects a subset of accounts to review, but there is no
   formal procedure in place outlining what should be looked at during this review. We
   performed a test to evaluate whether administrators are appropriately removing an
   employee’s logical access after termination. The results indicated that seven
                     accounts were not properly removed after the employees’ termination.

   NALC HBP has no process in place to review the appropriate level of access for active user
   accounts for any of the applications used to gain access to sensitive data. We could not
   conduct independent testing for appropriateness because NALC HBP does not document the
   access level approved for each user.

   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPPA
   Security Rule, states that organizations should develop “procedures for reviewing and, if
   appropriate, modifying access authorizations for existing users.” Furthermore, NIST SP 800-
   12, An Introduction to Computer Security, states that access reviews should “examine the
   levels of access each individual has, conformity with the concept of least privilege, whether
   all accounts are still active, whether management authorizations are up-to-date, whether
   required training has been completed, and so forth.”

   Recommendation 10
   We recommend that NALC HBP implement a process to review logical access to all of its
   systems and supporting applications to ensure that no terminated individuals retain access.

   NALC HBP Response:
   “A list of all active employees will be forwarded to the Information Systems Department by
   the Human Resources department                            The Information Systems
   Department will compare the list against active network accounts and active
   accounts for accuracy. Accounts will be adjusted accordingly.

   Documentation of the review will be retained in the Human Resources Department.

   The NALC HBP policy is now formally documented in IS-04 Access Control Policy and
   will be effective on February 1, 2014.”




                                               11
   OIGReply:
   The evidence provided by NALC HBP in response to the dr aft audit rep01t indicates that the
   Plan has implemented a process to review access to all of its systems to ensure that no
   tenninated individuals retain access; no ftnther action is required.

   Recommendation 11
   We recommend that NALC HBP implement a process to review active user accounts across
   major applications for appropriateness.

   NALC HBP Response:
   "The Information Systems Department will c o n d u c t - review ofall network
   accor~opriate levels ofaccess. The NALC HBP is assessing a monitoring tool
   from _ , o r - accounts to en sure appropriate levels ofaccess. The
   Information Systems Department will compare the list against active network accounts and
   active- accounts for accuracy. Accounts will be adjusted accordingly.

   The NALC HBP policy is now formally documented in IS-04 Access Control Policy and
   will be effective on February 1, 2014."

   OIGReply:
   The evidence provided by NALC HBP in response to the dr aft audit rep01t indicates that the
   Plan has implemented a process review the level of access for active user accmmts for all
   applications containing sensitive data; no ftnt her action is required.

4. 	 Weakn esses Identified in Physical Access Controls
   Data Center
   NALC HBP 's data center did not contain several controls that we typically obsetve at similar
   facilities, including:
   • 	 multi-factor authentication to enter the computer room (e.g., cipher lock or biometric
       device in addition to an access card);
   • 	 piggybacking almm s to enter the computer room (almm that sounds if more than one
       person walks past a sensor for each access card that is swiped); and
   • 	 video monitoring at the entrances.




   Failure to implement proper physical access controls increases the risk that unauthorized
   individuals can gain access to NALC HBP's data. center and the sensitive resources and
   confidential data. it contains.



                                               12 

NIST SP 800-53 Revision 4 provides guidance for adequately controlling physical access to
information systems containing sensitive data.

Recommendation 12
We recommend that NALC HBP improve the physical access controls at its data center. At a
minimum, the computer room should have multi-factor authentication and piggybacking
controls at both entrances.

NALC HBP Response:
“The NALC HBP is in agreement and is soliciting proposals from qualified vendors to
augment the current physical access controls at its data center to include multi-factor
authentication and alarm-based anti-piggyback controls at both entrances.”

OIG Reply:
As part of the audit resolution process, we recommend that NALC HBP provide OPM’s HIO
with evidence when physical access controls at the data center have been improved to include
multi-factor authentication and anti-piggybacking controls.

Facility
NALC controls physical access to its facility with proximity card readers, CCTV surveillance
and security guards posted inside the building’s two main entrances. However, the following
elements of NALC HBP’s facility security controls could be improved:
•   a routine audit of active access cards;
•   a recertification process for employees with specialized access to the building;
•   the temporary badge termination process; and
•   implement piggybacking controls.

We compared a list of employees that were terminated within the last three years to a list of
active access cards and discovered that six terminated employees still had access to NALC
HBP’s facility. In response to this test finding NALC HBP immediately removed the access
of the terminated employees.

A limited group of employees, including the Director and senior management, are granted
unrestricted access at every entrance to NALC HBP’s facility 24 hours a day and 7 days a
week. However, there is currently no process in place to recertify that these employees still
require this level of access to the facility.

Temporary badges for visitors could be set to expire after a certain pre-determined period of
time; however, NALC HBP does not enforce this. When access for a visitor is no longer
required, an email is manually sent to the facilities director as a reminder to remove the
visitor’s access.




                                            13
In addition, NALC HBP does not have physical access controls in place to prevent
employees from piggybacking into secure areas (one person using an electronic access card
to open a door, then holding that door open while others enter).

FISCAM states that “Controls should accommodate employees who work at the entity’s
facilities on an everyday basis; occasional visitors, such as employees of another entity
facility or maintenance people; and infrequent or unexpected visitors. Physical controls vary,
but include: manual door or cipher key locks, magnetic door locks that require the use of
electronic keycards, biometrics authentication, security guards, photo IDs, entry logs, and
electronic and visual surveillance systems.”

Also, FISCAM states that “By obtaining physical access to computer facilities and
equipment, an individual could (1) obtain access to terminals or telecommunications
equipment that provide input into the computer, (2) obtain access to confidential or sensitive
information on magnetic or printed media, (3) substitute unauthorized data or programs, or
(4) steal or inflict malicious damage on computer equipment and software.”

In addition, NIST SP 800-53 Revision 4 provides guidance for adequately controlling
physical access to information systems containing sensitive data.

Recommendation 13
We recommend that NALC HBP implement a process for routinely auditing all active access
cards to ensure that they are not assigned to terminated employees.

NALC HBP Response:
“A list of all active access cards will be forwarded by the facilities manager
      to Human Resources to ensure

•   Cards are issued to active employees only
•   Access level is appropriate for duties
•   Card number corresponds with ID number

The review of active access cards will be conducted by the Human Resources Department
staff and a log of the event review will be maintained in that department.

The NALC HBP policy is now formally documented in IS-12 Physical Access Security
Policy and will be effective on February 1, 2014. These are also reflected in HR Policies
and Procedures Manual.”

OIG Reply:
The evidence provided by NALC HBP in response to the draft audit report indicates that the
Plan has implemented a process to routinely audit all active access cards to ensure they are
no longer assigned to terminated employees; no further action is required.



                                            14
Recommendation 14
We recommend that NALC HBP implement a process to routinely recertify that employees
with specialized access still require such access. If no specialized access is required, then the
access level should be adjusted accordingly.

NALC HBP Response:
“A list of all specialized Access Cards will be forwarded                 to the
Administrative Office for review or more frequently as changes become necessary. Upon
review, specialized access will be adjusted accordingly.

Documentation of the review will be retained in the Human Resources Department.

The NALC HBP policy is now formally documented in IS-12 Physical Access Security
Policy and will be effective on February 1, 2014. These are also reflected in HR Policies
and Procedures Manual.”

OIG Reply:
The evidence provided by NALC HBP in response to the draft audit report indicates that the
Plan has implemented a recertification process to ensure employees with specialized access
still require that level of access and when that access is no longer required it is promptly
removed; no further action is required.

Recommendation 15
We recommend that NALC HBP implement a process to automatically disable temporary
access badges.

NALC HBP Response:
“Temporary cards are activated upon request from Human Resources when an employee
forgets their permanent access badge. Our current system is unable to deactivate
automatically. An RFI is being solicited for upgrade/replacement of Access System.

In the interim, temporary cards are deactivated manually                                 .

The NALC HBP policy is now formally documented in IS-12 Physical Access Security
Policy and will be effective on February 1, 2014. These are also reflected in HR Policies
and Procedures Manual.”

OIG Reply:
As part of the audit resolution process, we recommend that NALC HBP provide OPM’s HIO
with evidence of the upgraded/replacement badging system.




                                             15
     Recommendation 16
     We recommend that NALC HBP reassess the physical access controls at its facility and
     implement controls that will ensure proper physical security. At a minimum, NALC HBP
     should implement a piggybacking control at the two main entrances to the facility.

     NALC HBP Response:
     “The NALC HBP acknowledges the concern and has been actively investigating potential
     solutions to address the piggybacking issue highlighted by the OIG. While similar in
     nature to the concern raised with respect to the data center controls, we have determined
     the approach must be different due to the higher volume of employees passing through
     these entrances, and may involve the use of a turnstile or similar system. Any modification
     of the two main entrances of this nature must also be fully ADA compliant, will require
     building owner authorization and the appropriate building code permits.”

     OIG Reply:
     As part of the audit resolution process, we recommend that NALC HBP provide OPM’s HIO
     with evidence once the Plan has implemented an appropriate level of physical access controls
     at the two main entrances to their facility.

C. Network Security
  Network security includes the policies and controls used to prevent or detect unauthorized
  access, misuse, modification, or denial of a computer network and network-accessible resources.
  NALC HBP has recently begun to implement an incident response and network security
  program.

  We evaluated NALC HBP’s network security program and reviewed the results of several
  automated vulnerability scans we performed during this audit. We noted the following
  opportunities for improvement related to NALC HBP’s network security controls.

  1. Incident Response
     NALC HBP has not implemented a formal incident response policy or procedure. NALC
     HBP has recently implemented an intrusion detection system that, if configured
     appropriately, has the ability to detect certain levels of intrusion activity and automatically
     notify relevant personnel. However, NALC HBP has not formally identified what constitutes
     an intrusion, and the system has not been configured to notify personnel.

     NIST SP 800-53 Revision 4 requires an organization to develop, document and disseminate
     an incident response policy that addresses purpose, scope, roles, responsibilities,
     management commitment, coordination among organizational entities, and compliance as
     well as procedures to facilitate the implementation of the incident response policy and
     associated incident response controls.




                                                 16
   Recommendation 17
   We recommend that NALC HBP develop and implement incident response policies and
   procedures in accordance with NIST SP 800-53 Revision 4.

   NALC HBP Response:
   "The NALC HBP policy is 11ow formally documented in IS-15 Incident Management
   Policy and will be effective 011 February 1, 2014."

   OIG Reply:
   The evidence provided by NALC HBP in response to the draft audit repmi indicates that the
   Plan has developed and implemented incident response policies and procedures in
   accordance with NIST guidance; no fmiher action is required.

2. Full Scope Vulnerability Scanning
   We conducted a review ofNALC HBP's computer server vulnerability management program
   to determine if adequate controls were in place to detect, track, and remediate vulnerabilities.

   NALC HBP has not implemented a thorough vulnerability scanning methodology to detect
   known weaknesses, and its server environment has only been subject to a single vulnerability
   scan. NIST SP 800-53 Revision 4 states that the organization should routinely scan "for
   vulnerabilities in the information system and hosted applications ... ."

   Failure to petfmm full scope vulnerability scanning increases the risk that NALC HBP ' s
   systems contain security vulnerabilities that could lead to sensitive data being st:olen or
   destroyed.

   Recommendation 18
   We recommend that NALC HBP implement a methodology to routinely conduct
   vulnerability scans on its entire network environment, and to remediate vulnerabilities
   detected during scans in a timely manner.




  - .
   NALC HBP Response:
   "The NALC HBP has deployed a vulnerability scanning product from


   The product proactively scans our environment for misconjigllratious, vulnerabilities and
   ma/ware and provides guidance for mitigating risk.

   An automated vulnerability scan is performed 011 all
   -          on                 A manual scan             an                   servers
   performed on                  Due to the           nature of t h e - Systems,
   appropriate staff will be 011  during the scan iu the event of an issue.. ..

   Vulnerabilities are remediated in a timely manner according to their level of criticality.
                                                17
   A vulnerability trend report showing progress of the remediation process is emailed to
   appropriate staff on a monthly basis.

   The NALC HBP policy is now formally documented in IS-10 Malicious Software
   Management Policy and will be effective on February 1, 2014."

   OIGReply:
   The evidence provided by NALC HBP in response to the draft audit report indicates that the
   Plan has implemented a process to routinely conduct vulnerability scans on the entire
   network environment. However, as part of the audit resolution process, we recommend that
   the Plan provide OPM' s HIO with evidence o f t h e - c a n reports, vulnerability
   tracking system, and evidence of remediation.         ·

3. Vulnerabilities Identified by OIG Scans
   System Patching
   NALC HBP has not documented its patch management policies and procedures. The results
   of our vulnerability scans indicate that critical patches, service packs, and hot fixes are not
   implemented in a timely manner.

   FISCAM states that "software should be scanned and updated frequently to guard against
   known vulnerabilities." NIST SP 800-53 Revision 4 requires that "The organization
   (including any contractor to the organization) promptly installs security-relevant software
   updates (e.g., patches, service packs, and hot fixes). Flaws discovered during security
   assessments, continuous monitoring, incident response activities, or information system error
   handling, are also addressed expeditiously."

   Failure to promptly install important updates increases the risk that vulnerabilities will not be
   remediated and sensitive information could be compromised.

   Recommendation 19
   We recommend that NALC HBP implement procedures and controls to ensure that its
   servers are updated with the appropriate patches, service packs, and hotfixes on a timely
   basis.



   "The Plan                             in order to address this finding."

   OIG Reply:
   The evidence provided by NALC HBP in response to the draft audit report indicates that the
   Plan has implemented procedures and software to ensure that its servers are updated with the
   appropriate patches, service packs, and hotfixes on a timely basis; no further action is
   required.



                                                18
5. Firewall Management
   NALC HBP has implemented and utilizes a firewall to protect its network environment.
   However, a firewall policy, a routine compliance review process, and a firewall change
   control process have not been formally documented.

   NIST SP 800-41 Revision 1 states that a firewall policy should dictate how firewalls handle
   network traffic based on the organization’s information security policies, and a risk analysis
   should be performed to determine types of traffic needed by the organization. The policy
   should also include specific guidance on how to address changes to the rule set.

   Failure to develop a firewall configuration policy and manage the settings increases the
   organization’s exposure to unsecure traffic and vulnerabilities.

   Recommendation 23
   We recommend that NALC HBP develop a formal firewall management policy.

   NALC HBP Response:
   “The NALC HBP policy is now formally documented in IS-11 Network Security
   Management Policy and will be effective on February 1, 2014.

   Baseline configurations are being established as part of the implementation and training
   process for the new firewall.”

   OIG Reply:
   The evidence provided by NALC HBP in response to the draft audit report indicates that the
   Plan has documented a formal firewall management policy; no further action is required.

   Recommendation 24
   We recommend that NALC HBP implement a process to conduct routine configuration
   compliance reviews of its network firewalls.

   NALC HBP Response:
   “As part of the new firewall implementation process, the technician performing the
   installation will assist in establishing configuration compliance review methodology.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence when a process to conduct routine configuration compliance reviews on the
   firewalls has been implemented.




                                               21
D. Configuration Management
  System Software
  NALC HBP 's claims processing
  and additional supp01iing applications are   ma
  eval uated NALC HBP 's configuration management

  The sections below document areas for improvement related to NALC HBP's configuration
  man agement controls.

  1. Configuration Management Policies and Procedures
     NALC HBP has not developed configuration policies and procedures related to ensuring its
     computer servers are configured in a secure manner. In addition, NALC HBP has not
     documented a f01m al baseline configuration for its computer se1vers. A baseline
     configuration is a f01m ally approved stan dard outlining how to securely configure various
     operating platfonns .

     NIST SP 800-53 Revision 4 requir es an organization to develop a configuration management
     policy that addresses purpose, scope, roles, responsibilities, management commitment,
     coordination among organizational entities, and complian ce, as well as procedures to
     facilitate the implementation of the configuration management policy and associated
     configuration management controls.

     In addition, NIST SP 800-53 Revision 4 states that an organization must develop, document,
     and maintain a current baseline configuration of the inf01m ation system .

     Failure to establish approved system configuration settings increases the risk the system may
     not be configured in a secure manner.

     Recommendation 25
     We recommend that NALC HBP develop cmporate configuration management policies an d
     procedures in accordan ce with NIST SP 800-53 Revision 4 guidelines.

     NALC HBP Response:
     "The NALC HBP is in the process ofdocumenting our configuration managem ent policies
     and procedures in accordance with the NIST guidelines. A s this requires research across
     many platforms and operating systems, the process has required more research and
     planning than we had anticipated. We are so~ outside resources and reviewing
     compliance and monitoring products for the -       side ofour environment and are
     researching United States Government Baseline Configuration - N ational Checklist
     Program for o u r - policies and procedures.

     We are targeting th e second quarter 2014 for having management policies fully form ed."



                                                22 

   OIGReply:
   As pa1t of the audit resolution process, we recommend that NALC HBP provide OPM 's HIO
   with evidence when the plan has developed and implemented c01porate configuration
   management policies and procedures in accordance with NIST guidance.

2. Configuration Compliance Auditing
   As noted above, NALC HBP does not maintain approved operating platfonn security
   configurations, and therefore cannot effectively audit its systems security settings (i.e., there
   are no approved settings to which to compare the actual settings) .

   NIST SP 800-53 Revision 4 states that an organization must monitor and control changes to
   the configuration settings in accordance with organizational policies and procedures.

   FISCAM requires cunent configuration infonnation to be routinely monitored for accuracy.
   Monitoring should address the baseline and operational configuration of the hardware,
   software, and fitmware that comprise the inf01m ation system.

   Failure to implement a thorough configuration compliance auditing program increases the
   risk that insecurely configured setv ers exist undetected, creating a potential gateway for
   malicious vims and hacking activity that could lead to data breaches.

   Recommendation 26
   We recommend that NALC HBP document approved baseline configurations for all
   operating platfonns.

   NALC HBP Response:
  "The NALCHBP has completed a~ance Assessment through a n ­
  focu sed third party company know~as afirst step toward establishing
  baseline configurations on that platform. We will be establishing a test partition ofour
  production environment to assess the business impact ofimplementing the baseline
  configurations. Our IT st~e process ofcreating a test network environment in
  order to create a baseli n e - environment based upon United States Government
  Baseline Configuration -National Checklist Program recommendations. "

   OIGReply:
   As prut of the audit resolution process, we recommend that NALC HBP provide OPM 's HIO
   with evidence when the p lan has documented an approved baseline configuration for all
   operating platfonns.

   Recommendation 27
   We recommend that NALC HBP implement a process to routinely audit network setvers '
   security configuration settings to ensure they are in compliance with the approved
   configuration baselines.


                                                 23 

   NALC HBP Response:
   "The NALC HBP has entered into a contract with a third party known as ­
  -         acquire an application that will monitor for assurance that security
  configurations are maintained according to established baselines.
  The NALC HBP has recently reviewed~lication fro~ that will provide
  similar capabilities for monitoring t h e - A determination will be made regarding
  acquiring this application after product quotes are received. "

   OIGReply:
   As prut of the audit resolution process, we recommend that NALC HBP provide OPM 's HIO
   with evidence when the Plan has implemented a process to routinely audit network servers '
   secmity configm ation settings to ensme compliance with the approved configmation
   baselines.

3. System Software Change Control
   NALC HBP maintains a mlllling list of changes made t~ However, NALC HBP
   has not established a fonnal systems development lifecycle (SDLC) methodology with
   c01porate approved policies and procedmes . Although a list of system changes is
   maintained, relevant documentation related to the change is not maintained for post­
   implementation review.

   NIST SP 800-53 Revision 4 recommends that organizations detennine the types of changes
   to the infonnation system that should be conu·olled, approve configm ation changes to the
   system with consideration for secmity impact analysis, document approved configm ation
   changes, retain and review records of configmation changes, audit activities associated with
   configmation changes, and coordinate and provide oversight for configmation change
   conu·ol.

   Although all changes made to the system are documented, a f01mal policy outlining the
   required documentation and the required approvals for all system changes has not been
   developed. This exposes the system to unwruTanted and lmapproved changes, potentially
   leading to system vulnerabilities.

   Recommendation 28
   We recommend that NALC implement fonnal system softwru·e change control policies and
   procedmes in accordance with NIST SP 800-53 Revision 4 to ensme that changes are
   approved, documented, recorded, reviewed, audited, and given oversight.

   NALC HBP Response:
   "The NALC HBP has not the resources currently to institute this recommendation but will
   be creating a testing environment for t h e - and a test network toward building a
   compliance platform. Configuration change control procedures will follow after baselines
   are established. Change Management Policy will be adjusted accordingly as the project


                                              24 

     unfolds. In the meantime, changes will be reviewed documented and approved according
     to current procedures.”

     OIG Reply:
     As part of the audit resolution process, we recommend that NALC HBP provide OPM’s HIO
     with evidence when the plan has implemented formal system software change control
     policies and procedures in accordance with NIST guidance.

  4. Password Requirements
     NALC HBP has documented corporate password standards. However, we discovered many
     instances where information systems did not follow the established guidelines.

     NIST SP 800-53 Revision 4 requires an organization to enforce minimum password
     complexity based on organization defined requirements.

     Failure to enforce strong password requirements on information systems increases the risk
     that the systems could be breached by brute force password attacks.

     Recommendation 29
     We recommend that NALC HBP make the appropriate system changes to ensure that all
     systems require complex passwords that comply with the corporate policy.

     NALC HBP Response:
     “The NALC HBP policy is now formally documented in IS-05 Account Management
     Policy and will be effective on February 1, 2014.”

     OIG Reply:
     As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
     with screen shots of the password configurations from the information systems indicating
     compliance with the new corporate password policy.

E. Contingency Planning
  We reviewed NALC HBP’s contingency planning program to determine whether controls are in
  place to prevent or minimize interruptions to business operations when disastrous events occur.
  We determined that the Plan has identified critical applications and routinely rotates back-up
  data to an off-site location. However, we have serious concerns about NALC HBP’s
  contingency planning program and do not have confidence that the plan could maintain business
  operations if its primary facility was disabled.

  The sections below document opportunities for improvement related to NALC HBP’s
  contingency planning program.




                                                25
a) Business Impact Analysis
   NALC HBP has not conducted an adequate business impact analysis (BIA). During the field
   work phase of the audit we were provided with a draft version of a BIA, but it has not been
   finalized and does not contain several of the requirements documented in NIST 800-34
   Revision 1, Contingency Planning Guide for Federal Information Systems.

   NALC HBP also has not identified the critical resources (i.e., personnel) required to support
   critical operations and business functions in the event of a disaster, nor has it identified
   recovery priorities. NALC HBP has created a list of critical hardware, but all items were
   equally assigned the highest priority.

   NIST 800-34 Revision 1 states that a BIA is a key step in implementing a contingency
   planning process. Three steps involved in completing a BIA include determining business
   processes and recovery criticality, identifying resource requirements, and identifying
   recovery priorities for system resources. Failure to conduct a BIA increases the risk that the
   Plan will not be able to recover critical business operations in a timely manner.

   Recommendation 30
   We recommend that NALC HBP conduct a business impact analysis in accordance with
   NIST 800-34 Revision 1.

   NALC HBP Response:
   “For Recommendations 30-36 (also see individual recommendations for specific
   responses): The NALC HBP agrees generally with the OIG’s overall assessment of the
   Plan’s contingency planning program. Prior to the commencement of the OIG’s audit of
   general and application controls, the Plan sought its own independent assessment of its
   disaster recovery and business continuity capabilities, which included the aforementioned
   draft business impact analysis. Senior management, upon reviewing the unfinalized draft
   report, chose to move aggressively to mitigate what it saw as the most critical weaknesses
   including the back-up data capabilities. Management remains committed to an aggressive
   mitigation strategy and a complete redesign of its contingency planning program, which
   will address all of the weaknesses identified by the OIG, including most significantly, the
   Plan’s data back-up and alternate work site capabilities. Plan documentation and testing
   will follow accordingly in compliance with NIST and/or other best practices. At this time,
   while management has sought proposals for on-site back-up power generation, we feel
   other elements of the overall contingency plan redesign may obviate the need for this
   recommendation.

   With respect to OIG’s comment that the NALC HBP does not routinely perform
   emergency response training, we wish to clarify that while it is our intent to revisit and
   improve all areas of our contingency planning including emergency response training, the
   Plan does in fact routinely arrange for the members of its volunteer AED staff to recertify
   their CPR training.”



                                               26
   OIGReply:
   As pa1t of the audit resolution process, we recommend that the Plan provide OPM 's HIO
   with evidence once a business impact analysis has been conducted in accordance with NIST
   guidance. With regards to NALC HBP 's plan to redesign its contingency planning program,
   we will work with RIO's audit resolution team to make the appropriate adj ustments to the
   contingency planning related recommendations as the Plan develops its new strategy.

b) Alternate Recovery Location
   NALC HBP does not have an altem ate location to recover its computing environment in the
   event of a disaster. We were told that NALC HBP has made arrangements to begin using
   hardware at the NALC union headquruters building in Washington, D .C. as a backup
   location, and production data will be mirrored between the two sites. However, NALC HBP
   has not identified an altem ate location for employees to work and perf01m business
   operations.

   NIST SP 800-53 Revision 4 states that an organization must establish "an altem ate
   processing site including necessruy agreements to pennit the resumption of infonnation
   system operations for essential missions and business functions ...." Failure to establish an
   altem ate processing site prohibits NALC HBP fro m continuing business operations in the
   event of a disaster.

   Recommendation 31
   We recornmend that NALC HBP fully implement the data backup capabilities at the NALC
   headquruters building.

   NALC HBP Response:
   "In August of2013 the NALC HBP conducted a major infrastructural upgrade to our IT
   environment in order to facilitate off-site data replication. A similar environment was
   constructed in October 2013 at our data exchange partner location, the National
   Association ofL etter Carriers (NALC) H eadquarters in Washington D C.

   The components ofthe exchange infrastructure are an
            server environment and a
                        A ll ofthese components are escam:zsn


  However, both sites encountered a problem with the                           during
  installation. The problem proved to be an obscure one                      resolved on
  January 17, 2014. The project could not entirely move fonvard until the issu e was settled.
  In the interim, the NALC HBP IT                  week-long training sessions for t h e .
  - i n N ovember 2013 andfor                             elements ofthe solution in
  December 2013.

   A dditionally in December 2013, a n - technician completed a configuration evaluation,
   firm ware updates to relevant devices, and establish ed network storage areas at this facility
                                               27 

   and at NALC HQ for purposes of replication. The technician will be returning in February
   2014 to complete the training and begin implementation.

   The            server farm was established in November 2013 but this portion of the project
   was also placed on hold until the      issue was resolved.         training will be hands-
   on as the project unfolds.

   It is anticipated that replication will be functioning fully in the March 2014 timeframe.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence once it has fully implemented the data backup capabilities at the NALC
   headquarters building.

   Recommendation 32
   We recommend that NALC HBP create a plan that establishes an alternate work site for its
   employees that allows for critical business operations to continue if the main facility is not
   accessible.

   NALC HBP Response:
   Included in the NALC HBP response to recommendation 30.

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence once a plan has been established for an alternate work site that allows for
   critical business operations to continue in the event the main facility is inaccessible.

c) Data Center Generator
   The backup power generator at the NALC HBP facility does not have the capacity to sustain
   the data center in the event of a prolonged power outage. NALC HBP has an uninterruptable
   power supply that can sustain the data center for up to four hours. However, any power
   outage lasting longer than four hours would result in the complete shutdown of operations
   until power could be restored. This issue is compounded by the lack of an alternate recovery
   location.

   HIPAA §164.308(a)(7)(ii)(C) requires covered entities to “Establish (and implement as
   needed) procedures to enable continuation of critical business processes for protection of the
   security of electronic protected health information while operating in emergency mode.”
   NALC HBP could not process claims if its facility experiences an extended power outage.

   Recommendation 33
   We recommend that NALC HBP install a power generator that can maintain data center
   operations in the event of a power loss.

                                                28
   NALC HBP Response:
   Included in the NALC HBP response to recommendation 30.

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence once the Plan has installed a power generator that can maintain data center
   operations in the event of a power loss, or implemented other controls that would address the
   weaknesses described in this section.

d) Contingency Plan
   NALC HBP’s contingency plan does not address many of the suggested elements of NIST
   SP 800-34 Revision 1. NALC HBP has created a Disaster Recovery Manual that outlines
   high level procedures to follow in the event of a disaster. However, the procedures instruct
   disaster recovery personnel to perform actions and analysis that typically should be
   performed before a disaster occurs, and already be documented in a contingency plan. Also,
   the fact that NALC HBP has not conducted a BIA, established alternate recovery and
   processing locations, or identified critical resources drastically reduces the effectiveness of
   the Disaster Recovery Manual.

   NIST SP 800-34 Revision 1 identifies the five main components of a contingency plan, as
   follows: Supporting Information, Activation and Notification Phase, Recovery Phase,
   Reconstitution Phase, and Appendices. Failure to establish a thorough contingency plan
   increases the risk that NALC HBP will not be able to continue business operations in the
   event of a disaster.

   Recommendation 34
   We recommend that NALC HBP update its Disaster Recovery Manual in accordance with
   NIST SP 800-34 Revision 1.

   NALC HBP Response:
   Included in the NALC HBP response to recommendation 30.

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence once the Disaster Recovery manual has been updated in accordance with NIST
   guidance.

e) Contingency Plan Testing
   NALC HBP does not perform contingency plan testing. We were told that the Plan has at
   one time restored data from back-up tapes. However, the restoration occurred several years
   ago and was performed on the production environment at the main facility. NALC HBP has
   never restored data at an alternate location.


                                               29
   NIST SP 800-34 Revision 1 states that contingency plan testing “is a critical element of a
   viable contingency capability. Testing enables plan deficiencies to be identified and
   addressed by validating one or more of the system components and the operability of the
   plan.” NIST SP 800-53 Revision 4 states that the organization must review the contingency
   plan test results and initiate corrective action. Failure to test the contingency plan increases
   the risk that NALC HBP will not be able to recover business operations if unexpected events
   occur.

   Recommendation 35
   We recommend that NALC HBP routinely test its contingency plan and incorporate the
   results into the contingency plan.

   NALC HBP Response:
   Included in the NALC HBP response to recommendation 30.

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence that the contingency plan is routinely tested and the results incorporated into
   plan updates.

f) Emergency Response Training
   NALC HBP does not routinely perform emergency response training. The Plan conducts
   periodic evacuation drills and has procedures for activating the fire suppression system in the
   data center. However, there is no periodic training for employees with emergency response
   responsibilities.

   NIST SP 800-53 Revision 4 states that the Plan should train “personnel in their contingency
   roles and responsibilities with respect to the information system and provides refresher
   training.” Failure to conduct periodic emergency response training would increase the risk
   that human life, equipment, and sensitive data would be lost.

   Recommendation 36
   We recommend that NALC HBP provide periodic emergency response training to
   individuals with emergency response responsibilities.

   NALC HBP Response:
   Included in the NALC HBP response to recommendation 30.

   OIG Reply:
   As part of the audit resolution process, we recommend that the Plan provide OPM’s HIO
   with evidence that employees with emergency response responsibilities are provided periodic
   training relevant to their roles in business continuity and disaster recovery.


                                                30
F. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  NALC HBP’s claims adjudication process.

  1. Application Configuration Management
     System Development Life Cycle Methodology
     NALC HBP has not implemented a standard SDLC methodology for managing application
     development. NALC HBP owns a change management software product, but usage policies
     and procedures have not been formally defined.

     According to FISCAM, “The entity should have a documented SDLC methodology that
     details the procedures that are to be followed when applications are being developed, as well
     as when they are subsequently modified.”

     Failure to implement a standard SDLC methodology increases the risk that unapproved and
     improperly tested changes are introduced into the production environment.

     Recommendation 37
     We recommend that NALC HBP implement a formal SDLC methodology that defines
     responsibilities for each employee within the change control process. This process should
     require standardized documentation for all steps of the change control process.

     NALC HBP Response:
     “The NALC HBP policy is now formally documented in IS-30 System Development
     Lifecycle Policy and will be effective on February 1, 2014.”

     OIG Reply:
     The evidence provided by NALC HBP in response to the draft audit report indicates that the
     Plan has implemented a formal SDLC methodology that defines responsibilities for each
     employee within the change control process. The process also includes standardized
     documentation for all steps of the change control process; no further action is required.

  2. Claims Processing System
     We evaluated the input, processing, and output controls associated with NALC HBP’s claims
     processing system. We determined that NALC HBP has implemented policies and
     procedures to help ensure that:
     • paper claims that are received in the mail room are tracked to ensure timely processing;
     • claims are monitored as they are processed through the system; and
     • claims scheduled for payment are actually paid.




                                                 31
3. Enrollment
   We evaluated NALC HBP's procedures for managing its database of member enrollment
   data. Changes to member enrollment inf01mation are primarily received via an encrypted
   electronic transmission. Enrollment changes are processed on a weekly basis. NALC HBP
   has an audit ftmction for each step of the enrollment process. We do not have any concems
   regarding NALC HBP ' s enrollment policies and procedures.

4. Debarment
   NALC HBP has adequate procedures for updating its claims system with debaned provider
   information. NALC HBP downloads the OPM OIG debannent list eve1y month and converts
   the file to a f01mat that is loaded into the Plan's claims processing system. Any debarred
   providers that appear in NALC HBP's provider database are flagged to prevent claims
   submitted by that provider from being inappropriately paid during the claims adjudication
   process. Nothing came to our attention to indicate that NALC HBP has not implemented
   adequate controls over the debmment process.

5. Application Controls Testing
   We conducted a test on NALC HBP' s claims adjudication application to evaluate the
   system's processing controls. The exercise involved processing test claims designed with
   inherent flaws and evaluating the manner in which NALC HBP ' s systems adjudicated the
   claims. Our test results indicated that NALC HBP's system has controls and system edits in
   place to identify the following scenarios:
   •   timely filing;
   •   enrolhnent inconsistencies;
   •   invalid date of se1vice;
   •   chiropractic benefit stmcture;
   •   duplicate claims; and
   •   coordination of workers compensation.

   The sections below document opporh.mities for improvement related to NALC' s claims
   application controls.

   a. Medical Editing
       Our claims testing exercise identified several scenm·ios where NALC HBP's claims
       system failed to detect medical inconsistencies. For each of the following scenarios, a
       test claim was processed and paid without encmmte1ing any edits detecting the
       inconsistency:

       •
       •

                                               32 

     •
     •
     •
     •

     These system weaknesses increase the risk that benefits are being paid for procedures that
     were not actually performed.

     Recommendation 38
     We recommend that NALC HBP make the appropriate system modifications to prevent
     medically inconsistent claims fTom being processed.

     NALC HBP Response:
      "For Recommendations 38-41: The original application control testing that was
     conducted on the Plan's claim system did not include all the processes that the Plan
     employs to adjudicate a claim, i.e., it was not conducted as an end-to-end test, but
     focused exclusively on the claim system. The attached spreadsheet (OIG Test Claims)
     lists the claims scenarios and includes comments from the Plan and Cigna which take
     into account our end-to-end claims process.

     In addition, the Plan performs post-payment audits daily to ensure that claims are
     being adjudicated correctly. The audits performed by our internal Audit Department
     are described below. ...

     We believe that the process as a whole provides sufficient protections against the
     inappropriate payment ofclaims. In addition, the Plan is actively investigating the
     purchase ofa clinically based claims audit program that applies edits to claims during
     the adjudication process as a further level ofprotection."

     OIGReply:
     NALC HBP's response indicates that the application control testing performed during
     this audit did not properly reflect all the controls that the Plan employs to adjudicate a
     claim in the production environment. However, to date no evidence has been provided to
     support this position. If and when the Plan is able to provide evidence of the controls
     present in the end-to-end adjudication process, we will perfonn additional testing as patt
     of a supplemental or follow-up audit. The recommendations in this section of the repott
     should remain open until NALC HBP has successfully demonstrated that the weaknesses
     described do not exist in its claims processing system.

b.
     Test claims were processed that violate

                                               33 

     This system weakness increases the risk that benefits are being paid for procedmes that
     were not actually performed.

     Recommendation 39
     We recommend that NALC HBP make the appropriate system modifications to enforce
     proper procedme code billing guidelines.

     NALC HBP Response:
     Included in the NALC HBP response to Recommendation 38.

     OIGReply:
     As mentioned in the OIG Reply to Recommendation 38, if and when the Plan is able to
     provide evidence of the end-to-end system of controls, we will perform additional testing
     as part of a supplemental or follow-up audit.

c.
     NALC HBP's claims processing
     -claims for a member with

                 does not have edits in place t·o ·event duplicate ­   charges for
                  We submitted two claims fo           for one member at the same
                    We also submitted claims or a member f o -
                   NALC HBP inappropriately processed and paid the                serv1ces


     This system weakness increases the risk t h a t - are being paid for duplicate .
     expenses.

     Recommendation 40
                                                            system modifications to ensme
     that claims are not paid for duplicate               charges.

     NALC HBP Response:
     Included in the NALC HBP response to Recommendation 38.




                                              34 

          OIG Reply:
          As mentioned in the OIG Reply to Recommendation 38, if and when the Plan is able to
          provide evidence of the end-to-end system of controls, we will perform additional testing
          as part of a supplemental or follow-up audit.

     d.
          Duplicate test claims were processed for a procedure that typically
             .

          We submitted two test claims with a patient receiving a                                on
          separate dates. These claims were processed and paid without encountering any edits.
          Due to the similarity of these claims, we expected the second claim to be deferred by a
          suspected duplicate edit, so that a claims processor could determine if the claim was
          submitted correctly.

          Recommendation 41
          We recommend that NALC HBP make the appropriate system modification to prevent
          near duplicate claims from processing.

          NALC HBP Response:
          Included in the NALC HBP response to Recommendation 38.

          OIG Reply:
          As mentioned in the OIG Reply to Recommendation 38, if and when the Plan is able to
          provide evidence of the end-to-end system of controls, we will perform additional testing
          as part of a supplemental or follow-up audit.

G. Health Insurance Portability and Accountability Act
  We reviewed NALC HBP’s efforts to maintain compliance with the security and privacy
  standards of HIPAA.

  NALC HBP’s HIPAA security and privacy organization consists of a security officer and
  privacy officer. The Plan developed a series of privacy policies and procedures that address
  requirements of the HIPAA privacy rule. NALC HBP reviews its HIPAA privacy and security
  policies annually and updates when necessary. However, all of the elements of the HIPAA
  security rule have not been implemented. The areas within the security rule that need to be
  improved have been discussed in the sections above. By implementing those recommendations,
  NALC HBP will be in compliance with the HIPAA security rule.




                                                  35
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                     , Chief
•                   , Auditor-In-Charge
•               , Lead IT Auditor
•                        , IT Auditor
•                           , IT Auditor




                                              36
                                         Appendix I


                                          July 29, 2013



MEMORANDUM FOR ELAINE KAPLAN
               Acting Director

FROM:                    PATRICK E. McFARLAND
                         Inspector General

SUBJECT:                 Flash Audit Alert – Information Security at the National Association of
                         Letter Carriers Health Benefit Plan (NALC HBP)

The U.S. Office of Personnel Management (OPM) Office of the Inspector General (OIG) is
issuing this flash audit alert to bring to your immediate attention serious concerns we have
regarding the National Association of Letter Carriers Health Benefit Plan’s (NALC HBP) ability
to adequately secure sensitive Federal data.

NALC HBP is a participating carrier in the Federal Employees Health Benefits Program
(FEHBP) and processes health insurance claims for FEHBP members and their dependents. This
company therefore manages highly sensitive data such as personally identifiable information and
personal health information.

We are currently in the fieldwork phase of an information technology (IT) audit at NALC HBP,
and have determined that this organization has a very limited information security program. One
primary concern is the fact that NALC HBP has not developed comprehensive IT security
policies and procedures. IT policies and procedures are the critical foundation of a strong
information security program, as these documents provide guidance on how IT security should
be managed at a specific organization.

We also conducted vulnerability scans of NALC HBP’s network server environment, and
discovered critical vulnerabilities that could be easily exploited by a malicious attacker. These
weaknesses include, but are not limited to: insecure server configurations, outdated and
unnecessary software installations, and missing vendor security patches and hot fixes.

In addition to these two primary concerns, we detected the following serious or critical
weaknesses in NALC HBP’s information security program:

   •   A lack of IT security training for employees;
   •   Weak physical access controls to facilities and sensitive computing resources;
   •   No formal system development life cycle methodology;
   •   Weak system authentication requirements;
Elaine Kaplan                                                                                        2


      •    Under-developed business continuity and disaster recovery strategies; and,
      •    Inadequate management of system software configuration.

Most, if not all, of these findings are a direct violation of the Health Insurance Portability and
Accountability Act (HIPAA) Security Rule.

We plan to issue a full IT audit report (Audit of Information System General & Application
Controls at NALC HBP, Report No. 1B-32-00-13-037) that will contain many specific audit
recommendations to improve IT security at NALC HBP. However, this report will not be issued
until fiscal year 2014, and we are therefore immediately issuing the following recommendations
so that NALC can begin taking steps to address the most serious weaknesses.

Recommendation 1
We recommend that NALC HBP develop comprehensive IT security policies and procedures.
At a minimum, NALC HBP should implement policies and procedures related to the following
topics:

•     Risk Assessments                               •   Password Requirements
•     Contingency Planning and Testing               •   Vulnerability Scanning
•     Security Awareness Training                    •   Server Configuration Management,
•     Employee Termination                               Baseline Configurations, and Auditing
•     Physical Access Controls                           Server Configuration
•     Auditing/Monitoring User and                   •   System Development Lifecycle
      Administrator Activity                         •   Firewall Management
•     Appropriate Use of Software                    •   Web and E-mail Filtering
•     Segregation of Duties                          •   Wireless Network Access
•     Security Incident Response                     •   Control of Removable Media

Recommendation 2
We recommend that NALC HBP make the appropriate changes to its computer servers in order
to address the critical weaknesses identified in the vulnerability scans.

If you have any questions about this flash audit alert you can contact me at 606-1200, or your
staff may wish to contact Michael R. Esser, Assistant Inspector General for Audits, at 606-2143.


cc:       Elizabeth A. Montoya
          Chief of Staff

          John O’Brien
          Director, Healthcare and Insurance

          Shirley R. Patterson
          Assistant Director for Federal Employee Insurance Operations
Elaine Kaplan                                                3



     Associate Director, Merit System Audit and Compliance


     Director, Internal Oversight & Compliance
                                                      Appendix II
                       NA TI O N AL ASSOCIAT I ON OF LETTE R S CA RRI E R S

                       HEALTH BENEFIT PLAN 

                20547 Waverly Cotut, Ashbtun, Vit·ginia 20149 • (703)729-4677 or 1-888-636-NALC (6252)
                             Fredric V. Rolando, President • Brian E. Hellman, Dit·ector




January 31 , 2014



-arge
Information Systems Aud its Group
United States Office of Personnel Management
Office of the Inspector General

Dear

Enclosed please f ind the NALC Health Benefit Plan's comments and responses to the draft
report detailing the results of the aud it of general and appl ication controls over the information
systems, conducted at our offices by the Office of the Inspector General at the U.S. Office of
Personnel Management (OPM).

In general , our comments and responses align to specific recommendations made in the draft
report. However, w ith respect to the sections addressing Contingency Plann ing and Claims
Adjudicat ion , our comments respond to the general findings and are organized under a single
heading. Where references are made to supporting documentation , we have included those
as separate attachments in either MS Word or Excel format.

                            uestions, please feel free to contact me at                                  or-




NALC Health Benefit Plan


cc:




                                                         Board ofTrustees 


                                   Randall L Keller   Lawrence D Brown, Jr , Ch   Micbael J Gill 

Recommendation 1 (from Flash Audit Alert issued July 29, 2013)
We recommend that NALC HBP develop comprehensive IT security policies and procedures.
At a minimum, NALC HBP should implement policies and procedures related to the
following topics:

   Risk Assessments                                  Password Requirements
   Contingency Planning and Testing                  Vulnerability Scanning
   Security Awareness Training                       Server Configuration Management,
   Employee Termination                               Baseline Configurations, and Auditing
   Physical Access Controls                           Server Configuration
   Auditing/Monitoring User and                      System Development Lifecycle
    Administrator Activity                            Firewall Management
   Appropriate Use of Software                       Web and E-mail Filtering
   Segregation of Duties                             Wireless Network Access
   Security Incident Response                        Control of Removable Media

NALC HBP Response:
The NALC HBP has developed and adopted the attached Information Security Policies and
Procedures.

Recommendation 2
We recommend that NALC HBP implement a process to routinely review and update its IT
security policies.

NALC HBP Response:
The NALC HBP has established an Information Security Management Committee.

The committee members are: NALC HBP Director, the NALC HBP Administrator, the Human
Resources Manager, the Facilities Manager, the Information Systems Manager, the Claims
Superintendent, the HIPAA Security Officer and the HIPAA Privacy Official.

The committee, in conjunction with members of the Information Systems Department staff and
representatives from the Administrative and Claims departments, have been integral in
formulating the newly established policies. The committee will meet annually prior to the
scheduled risk assessment to review and update IT security policies.

Policies will be addressed accordingly if circumstances dictate a review and update prior to the
scheduled event.

The NALC HBP policy is now formally documented in IS-01 Information Security Program
Policy on Policies and will be effective on February 1, 2014.


Recommendation 3
We recommend that as part of its efforts to obtain compliance with the HIPAA security rule,
NALC HBP implement a security awareness training program for its employees. For
guidance in creating a secmity awareness program see NIST SP 800-50. The program should 

be managed by the secmity management stm cture. 


NALC HBP Response: 

The NALC HBP is in the process of creating a security awareness program based
nn11u·•·~" in con unction with outside resources.           we have contacted 

                         ....,,"'•..,..,.,, " their                        educational 

                                                       ,...,.,..,,.,••u .. of the appropriate nl"<ll.rlllir-1" 





We are anticipating an April2014 launch for our security awareness training program for all
employees and will update our new employee educational material to address the security
requirements.

Recommendation 4
We recommend that NALC HBP develop and implement a training program for employees
with IT secmity responsibilities. The program should include:
•	   A process to identify and categorize positions with secmity responsibilities;
•	   Development of specialized secmity training requirements within job descriptions,
•	   Opportunities to seek and maintain technical ce1tifications;
•	   Documentation of training completed by each employee; and
•	   A periodic review of employee records to ensme that specialized secmity training is
     completed in accordance with standards.

NALC HBP Response: 

The NALC HBP is reviewing outside sources for purposes of establishing specialized training for 

employees with IT security              which will include the bulleted items above. The
sources contacted to date are

The NALC HBP has always encouraged and has a documented history of allowing our 

employees opportunities to seek and maintain technical certifications. 


Recommendation 5 

We recommend that NALC HBP develop and implement a risk management policy and a risk 

assessment methodology. NIST SP 800-30 serves as an excellent reference to assist NALC 

HBP with the development of its risk management program. Implementation of the suggested 

framework would also help NALC HBP obtain complian ce with the HIPAA Security Rule. 


NALC HBP Response: 

The NALC HBP policy is now formally documented in IS-19 IT Risk Management Policy and 

will be effective on February 1, 2014. 


 Recommendation 6 

 We recommend that NALC HBP implement a password policy that closely reflects industry 

 standards. 

NALC HBP Response: 

The NALC HBP policy is now formally documented in IS-05 Account Management Policy and 

will be effective on February 1, 2014. We believe the policy provides appropriate safeguards in 

light of NALC HBP's business needs. 


Recommendation 7
We recommend that NALC HBP address its -         and                                   password
setting weaknesses once a standard passworJPclicY has
organization.

NALC HBP Response: 

The NALC HBP policy is now formally documented in IS-05 Account Management Policy and 

will be effective on February 1, 2014. 


Recommendation 8 

We recommend that NALC HBP establish unique user accounts for each privileged user.

NALC HBP Response:
The NALC HBP has created unique user accounts for privileged users. At present, three
Information Systems staff senior managers have unique privileged accounts on the network and
on the~e Network Administrator has a unique privileged account on the network but
not on~ The Programming Staff members have a lesser set of privileges on t h e ­
than the senior managers but no special network privileges. The Operations staff has a unique
set of privileges on t h e - that are different than the programming staff and lesser than the
senior managers and have a unique set of privileges on the network that are lesser than the
senior managers.

The NALC HBP policy is now formally documented in IS-04 Access Control Policy and will be
effective on February 1, 2014.

Recommendation 9
We recommend that NALC HBP implement a process to routinely review privileged user
activities.

NALC HBP Response:
We have contracted with a third-party to provide an appliance and application that will allow
them to monitor account activity on our behalf. This will provide real-time alerts based upon
the sensitivity settings and will allow immediate review as required. A full review will be
conducted weekly by internal and/or the third party sources.

The NALC HBP policy is now formally documented in IS-18 Monitoring and Log Management
Policy.

It is expected that this process will be in place by February or March 2014.
Recommendation 10
We recommend that NALC HBP implement a process to review logical access to all of its
systems and supporting applications to ensure that no terminated individuals retain access.

NALC HBP Response:
A list of all active employees will be forwarded to the Information Systems Department by the
Human Resources department on a                 basis. The Information Systems Department will
compare the list against active network accounts and active          accounts for accuracy.
Accounts will be adjusted accordingly.

Documentation of the review will be retained in the Human Resources Department.

The NALC HBP policy is now formally documented in IS-04 Access Control Policy and will be
effective on February 1, 2014.

Recommendation 11
We recommend that NALC HBP implement a process to review appropriate level of access
for active user accounts for all applications used to gain access to sensitive data.

NALC HBP Response:

The Information Systems Department will conduct 
               review of all network accounts
for appropriate levels of access. The NALC HBP is assessing a monitoring tool from
for       accounts to ensure appropriate levels of access. The Information Systems
Department will compare the list against active network accounts and active          accounts
for accuracy. Accounts will be adjusted accordingly.

The NALC HBP policy is now formally documented in IS-04 Access Control Policy and will be
effective on February 1, 2014.

Recommendation 12
We recommend that NALC HBP improve the physical access controls at its data center. At a
minimum the computer room entrance should require multi-factor authentication and
piggybacking controls at both entrances.

NALC HBP Response:

The NALC HBP is in agreement and is soliciting proposals from qualified vendors to augment 

the current physical access controls at its data center to include multi-factor authentication and 

alarm-based anti-piggyback controls at both entrances.


Recommendation 13
We recommend that NALC HBP implement a process for routinely auditing all active access
cards to ensure that they are not assigned to terminated employees.

NALC HBP Response:
A list of all active access cards will be forwarded by the facilities manager on            basis
to Human Resources to ensure
     Cards are issued to active employees only
     Access level is appropriate for duties
     Card number corresponds with ID number

The review of active access cards will be conducted by the Human Resources Department staff
and a log of the event review will be maintained in that department.

The NALC HBP policy is now formally documented in IS-12 Physical Access Security Policy
and will be effective on February 1, 2014. These are also reflected in HR Policies and
Procedures Manual.

Recommendation 14
We recommend that NALC HBP implement a process to routinely recertify that employees
with specialized access still require specialized access. If no specialized access is required,
then the access level should be adjusted accordingly.

NALC HBP Response:

A list of all specialized Access Cards will be forwarded on a       basis to the 

Administrative Office for review or more frequently as changes become necessary. Upon 

review, specialized access will be adjusted accordingly. 


Documentation of the review will be retained in the Human Resources Department.

The NALC HBP policy is now formally documented in IS-12 Physical Access Security Policy
and will be effective on February 1, 2014. These are also reflected in HR Policies and
Procedures Manual.

Recommendation 15
We recommend that NALC HBP implement a process to automatically disable temporary
access badges.

NALC HBP Response:

Temporary cards are activated upon request from Human Resources when an employee forgets 

their permanent access badge. Our current system is unable to deactivate automatically. An 

RFI is being solicited for upgrade/replacement of Access System. 


In the interim, temporary cards are deactivated                                      .

The NALC HBP policy is now formally documented in IS-12 Physical Access Security Policy
and will be effective on February 1, 2014. These are also reflected in HR Policies and
Procedures Manual.

Recommendation 16
We recommend that NALC HBP reassess the physical access controls at its facility and
implement controls that will ensure proper physical security. At a minimum, NALC HBP
should implement a piggybacking control at the two main entrances to the facility.
NALC HBP Response: 

The NALC HBP acknowledges the concern and has been actively investigating potential 

solutions to address the piggybacking issue highlighted by the OIG. While similar in nature to 

the concern raised with respect to the data center controls, we have determined the approach 

must be different due to the higher volume of employees passing through these entrances, and 

may involve the use of a turnstile or similar system. Any modification of the two main entrances 

of this nature must also be fully ADA compliant, will require building owner authorization and 

the appropriate building code permits. 


Recommepdatiop 17 

We recommend that NALC HBP develop and implement incident response policies and 

procedmes in accordance with NIST SP 800-53 Revision 4, IR-1 , Incident Response Policy 

and Procedmes. 


NALC HBP Respopse; 

The NALC HBP policy is now formally documented in IS-15 Incident Management Policy and 

will be effective on February 1, 2014. 


Recommepdatiop 18 

We recommend that NALC HBP implement a process to routinely conduct vulnerability 

scan ing on the entire network environment and remediate vulnerabilities detected dming 

scans in a timely manner. 


NALC HBP Respopse; 




-
The NALC HBP has deployed a vulnerability scanning product f r o m - known as 



The product proactively scans our environment for misconfigurations, vulnerabilities and
malware and provides guidance for mitigating risk.

                             scan is performed
                              . A manual scan
                                 Due to the ""u. ....
                                scan in the event of an issue.

Discovered vulnerabilities are reviewed a d placed into the following 5 categories:




Vulnerabilities are remediated in a timely manner according to their level of criticality.

A vulnerability trend report sho,ving progress of the remediation process is emailed to
appropriate staff on a monthly basis.
Tht N'ALC HBP poliry is now formally dorumtntrd in IS-10 Malicious Softwarr Managtmrnt
Pollry and wtll bt dftrtivr on Frbruaa1· 1, 2014.

Recommepdatiop 19
We recommend that NALC HBP implement procedures and controls to ensure that
production servers are updated with appropriate patches, service packs, and hotfixes on a
timely basis.


                                  in ordrr to address this fmding.

Srrvirt parks,                                            and routintly ustd Jrd party
softwal't' such                                                 on tht following srhrdult:




Recommepdatjop 20 (from Flash Audjt Alert jssued .July 29, 2013>
We reconnnend that NALC HBP make the appropriate changes to its computer servers in
order to address the critical weaknesses identified in the vulnerability scans performed dming
this audit.

Noncurrent software
TI1e results of the vulnerability scans indicated that several servers contained noncurrent
software applications that were no longer supported by the vendors and have known security
vulnerabilities.

FISCAM states that ''Procedures should ensure that only cuuent software releases are
installed in information systems. Nonctment software may be vulnerable to malicious code
such as viruses and worms."

Failure to promptly remove outdated software increases the risk ofa successful malicious
attack on the infonnation system.

NALC HBP Resnopse;
        wr,aklllrssrs disrovrrrd dUI1ng thr audit wrrr addrrssrd and rrmrdird
                                 br addrrssrd as part of a largrr
                                tlmr. Additionally thr NALC
-   nrrds to br rrplarrd for thr rrasons ritrd above. It is txptrttd that tht                will
~laced by the end of lsr quarttr 2014.
Recommendatjon 21

We recommend that NALC HBP implement a process to ensure that only current and
supported versions of system software are installed on the production servers.

NALC HBP Response:
Production servus will only have software installed that is deemed necessary for the role and
management of the server. Application software Is kept current by updating to the latest
version as we are notified by the manufacturer. Unnrcrssary software ins~-vus Is
rrmoved whrn disronnd In the                     or     o bring noticed i n - - or
- ­              reports.                                     softwarr will automatically update
oprratiug systrm and           necessary                           - ­

.~ audit of the servus will be performed by the Information Systems Department to
rhrrk for outdated and unnecessary software.

The NALC HBP policy Is now formally documented In IS-11 Network Security Management
Polley and will be effective on February 1, 2014.

Recommepdatiop 22
We recommend that NALC HBP implement a control to prevent unauthorized devices from
connecting to the internal network environment.

NALC HBP Response: 

A nrw firewall was deployed at the NALC HBP on January 24, 2014. The technician that 

Installed the device bas Indicated that our firewall Is capable of performing this set-vice. It Is 

expected that this service will be Implemented In February 2014. 


Retommendatjon 23 

We recommend that NALC HBP document formal firewall management policies.

NALC HBP Respopse: 

The NALC HBP policy Is now formally dotumrnted In IS-11 Network Security Management 

Polley and will be effective on Februny 1, 2014. 


Basrllne configurations are being established as part oftbe Implementation and training 

process for the nrw firewall. 


Recommepdatjop 24 

We recommend that NALC HBP implement a process to conduct routine configuration
compliance reviews on its network fuewalls.

NALC HBP Respome; 

As part of the new firewall Implementation process, the technician puforming the Installation 

will assist In establishing cooftgu1·atiou compliance review methodology. 

Recommendation 25
We recommend that NALC HBP develop corporate configuration management policies and
procedures in accordance with NIST SP 800-53 Revision 4 guidelines.

NALC HBP Resoonse;
The NALC HBP is in the process of documenting our configuration management policies and
procedures in accordance with the NIST guidelines. As this requires research across many
platforms and operating systems, the process has required more research and planning than we
had anticipated. We are soliciting outside resources and reviewing compliance and monitoring
products for the-side of our environment and are rese~nited States Government
Baseline Configuration -National Checklist Program for o u r - - policies and procedures.

We are targeting the second quarter 2014 for having management policies fully formed.

Recommendatjon 26
We recommend that NALC HBP document approved baseline configurations for all
operating platforms.

NALC HBP Respopse;
The NALCHBP has completed                                   Assessment through a . - focused
third party company known as                  as a first step toward establishing baseline
configurations on that platform.               establishing a test partition of our production
environment to assess the business impact of implementing the baseline configurations. Our IT
staff is in the process of creating a test network environment in order to create a baseline
-environment based upon United States Government Baseline Configuration­
National Checklist Program recommendations.

Recommepdatjop 27
We recommend that NALC HBP implement a process to routinely audit network servers'
security configurations settings to ensure they are in compliance with the approved
configuration baselines.

NALC HBP Response;
The NALC HBP has entered into a contract with a third party known as                         to
acquire an application that will monitor for assurance that security
maintained according to established baselines.

The NALC HBP has recently reviewed an application from                      will provide similar
capabilities for monitoring th~ A determination w                   rell•ar.run'v acquiring this
application after product quotes are received.

Recommepdatiop 28
We recommend that NALC implement formal system software change control policies and
procedures in accordance with NIST SP 800-53, CM-3 Configuration Change Control, to
ensure that changes are approved, documented, recorded, reviewed, audited, and given
oversight.
NALC HBP Response:
The NALC HBP has not the resources currently to institute this recommendation but will be
creating a testing environment for the      and a test network toward building a compliance
platform. Configuration change control procedures will follow after baselines are established.
Change Management Policy will be adjusted accordingly as the project unfolds. In the
meantime, changes will be reviewed documented and approved according to current
procedures.

Recommendation 29
We recommend that NALC HBP make the appropriate system changes to ensure that all
systems require complex passwords that comply with the corporate policy.

NALC HBP Response:
The NALC HBP policy is now formally documented in IS-05 Account Management Policy and
will be effective on February 1, 2014.

Recommendation 30
We recommend that NALC HBP conduct a business impact analysis in accordance with
NIST 800-34 Revision 1.

NALC HBP Response for Recommendations 30-36 (also see individual recommendations
for specific responses):
The NALC HBP agrees generally with the OIG’s overall assessment of the Plan’s contingency
planning program. Prior to the commencement of the OIG’s audit of general and application
controls, the Plan sought its own independent assessment of its disaster recovery and business
continuity capabilities, which included the aforementioned draft business impact analysis.
Senior management, upon reviewing the unfinalized draft report, chose to move aggressively to
mitigate what it saw as the most critical weaknesses including the back-up data capabilities.
Management remains committed to an aggressive mitigation strategy and a complete redesign
of its contingency planning program, which will address all of the weaknesses identified by the
OIG, including most significantly, the Plan’s data back-up and alternate work site capabilities.
Plan documentation and testing will follow accordingly in compliance with NIST and/or other
best practices. At this time, while management has sought proposals for on-site back-up power
generation, we feel other elements of the overall contingency plan redesign may obviate the
need for this recommendation.

With respect to OIG’s comment that the NALC HBP does not routinely perform emergency
response training, we wish to clarify that while it is our intent to revisit and improve all areas of
our contingency planning including emergency response training, the Plan does in fact
routinely arrange for the members of its volunteer AED staff to recertify their CPR training.

Recommendation 31
We recommend that NALC HBP fully implement the data backup capabilities at the NALC
headquarters building.
~ALC HBP Response:
In August of 2013 the NALC HBP conducted a major infrastnctural upgrade to our IT
environment in order to facUitate off-site data replication. A simUar environment was
constructed in October 2013 at our data exchange partner location, the National Association of
Letter Carriers (NALC) Headquai1ers in Washington DC.




location.

However, both sites encoUIItered a problem with                               during
installation. The problem proved to be an obscun one    twas               resolved on January
17,2014. The project could not entirely move fonvard until the issue was settled. In the iutei1m,
the NALC HBP IT staff att~ training sessions for t h e - - ­
November 2013 and for t h e - - elements of the solution ~13.

Additionally in December 20                        completed a conftgnration evaluation,
firmware updates to relevant devices, and established network storage areas at this facility and
at NALC HQ for purposes of replication. The technician will be returning in February 2014 to
complete the training and begin implementation.

T h e - - server farm was established in Novembe•· 2013 l.Jut this po11ion of the p•·oject was
also~ hold until t h e . issue was resolnd.- training will be hands-on as the
project unfolds.

It is anticipated that nplication will be functioning fnlly in the March 2014 ttmeframe.

Recommendation 32
We recommend that NALC HBP create a plan that establishes an alternate work site and
allows for critical business operations to continue if the main facility is not accessible.

NAI~C HBP Response: 

Included in NALC HBP Response to Recommendation 30 and 31 


Recommendation 33
We recommend that NALC HBP install a power generator that can maintain data center
operations in the event of a power loss.

NAI~C HBP Response; 

Included in NALC HBP Response to Recommendation 30 and 31 


Recommendation 34
We recommend that NALC HBP update its Disaster Recovery Manual in accordance with
NIST SP 800-34 Revision 1.
Included in NALC HBP Response to Recommendation 30 and 31

Recommendation 35
We recommend that NALC HBP routinely test its contingency plan and incorporate the
results into the contingency plan.

NALC HBP Response:
Included in NALC HBP Response to Recommendation 30 and 31

Recommendation 36
We recommend that NALC HBP provide periodic emergency response training to
individuals with emergency response responsibilities.

NALC HBP Response:
Included in NALC HBP Response to Recommendation 30 and 31

Recommendation 37
We recommend that NALC HBP implement a formal SDLC methodology, which defines
responsibilities for each employee within the change control process. This process should
require standardized documentation for all steps of the change control process.

NALC HBP Response:
The NALC HBP policy is now formally documented in IS-30 System Development Lifecycle
Policy and will be effective on February 1, 2014.

Recommendation 38
We recommend that NALC HBP make the appropriate system modifications to prevent
medically inconsistent claims from being processed.

NALC HBP Response for Recommendations 38-41:
The original application control testing that was conducted on the Plan’s claim system did not
include all the processes that the Plan employs to adjudicate a claim, i.e., it was not conducted
as an end-to-end test, but focused exclusively on the claim system. The attached spreadsheet
(OIG Test Claims) lists the claims scenarios and includes comments from the Plan and Cigna
which take into account our end-to-end claims process.

In addition, the Plan performs post-payment audits daily to ensure that claims are being
adjudicated correctly. The audits performed by our internal Audit Department are described
below.

The Audit department handles auditing of different types of claims that are processed by
keyers, analysts, and the system. They detect errors in claims processed by any of these three
sources. Each Audit analyst is assigned a unique identification number when auditing claims.
The following are the types of audits that are performed on a daily basis:
•





On a rotating basis, the Audit department checks work done by employees in training and 

refresher classes. All analysts involved in the claims payment process have their work audited 

once every six months. Supervisors may request audits be done on their analysts if they feel 

they having trouble in a particular area. 

While we believe that the process as a whole provides sufficient protections against the 

inappropriate payment of claims. In addition, the Plan is actively investigating the purchase of 

a clinically based claims audit program that applies edits to claims during the adjudication 

process as a further level of protection. 


Recommepdatiop 39 

We recommend that NALC HBP make th e appropriate system modifications to enforce 

proper procedme code billing guidelines. 


NALC HBP Response: 

Included in NALC HBP Response to Recommendation 38 


Recommepdatiop 40 

We recommend that NALC HBP make the appropriate system modifications to ensme that 

claims are not paid for duplicate room and board charges. 


NALC HBP Response: 

Included in NALC HBP Response to Recommendation 38 


Recommepdatiop 41 

We recommend that NALC HBP make th e appropriate system modification to prevent near 

duplicate claims from processing. 


NALC HBP Response: 

Included in NALC HBP Response to Recommendation 38 

